Case: 21-40484

Document: 00515973513

Page: 1

Date Filed: 08/11/2021

/3

®nttei) States Court of Appeals
for tfje Jftftf) Circuit
S

s

£

®JcTiCS?
A True Copy
Certified order issued Aug 11, 2021

No. 21-40484

W. CtMjtjL
Clerk, U.S. Court of Appeals, Fifth Circuit

Michael G. Peters,
Plaintiff—Appellant,
versus
Dinah Huffman; Texas Department of Criminal Justice;
Bobby Lumpkin, Director,
Defendants—Appellees.
Appeal from the United States District Court
for the Southern District of Texas
USDC No. 3:21-CV-124

CLERK’S OFFICE:
Under 5th Cir. R. 42.3, the appeal is dismissed as of August 11,
2021, for want of prosecution. The appellant failed to timely pay docketing
fee.
LYLE W. CAYCE
Clerk of the United States Court
of Appeals for the Fifth Circuit

By:
Shawn D. Henderson, Deputy Clerk
ENTERED AT THE DIRECTION OF THE COURT

United States District Court
Southern District of Texas

ENTERED
May 26, 2021

IN THE UNITED STATES DISTRICT COURT;Nathan Ochsner, Clerk
FOR THE SOUTHERN DISTRICT OF TEXAS
GALVESTON DIVISION
No. 3:21-cv-0124
Michael G. Peters, TDCJ #2019190, Plaintiff,
v.
Dinah Huffman, etal., Defendants.
ORDER OF DISMISSAL
Jeffrey Vincent Brown, United States District Judge.
Plaintiff Michael G. Peters (TDCJ #2019190; former Montgomery County
Inmate #551534) is presently incarcerated in the Texas Department of Criminal
Justice - Correctional Institutions Division (“TDCJ”) at the Stringfellow Unit in
Rosharon. Peters has filed a civil rights complaint under 42 U.S.C. § 1983 [Dkt. 1]
against Dinah Huffman, who serves as the mailroom supervisor at the Stringfellow
Unit. Peters also sues TDCJ Director Bobby Lumpkin and the State of Texas
ajJ_eging'that"eleven-pieGes-of-maiLaddressed to certain “wehsihLdesigners’Lhave
been stolen or intercepted as part of a conspiracy to cover up “state racketeering
crimes.” Peters has filed a motion requesting leave to proceed in forma pauperis
[Dkt. 3]. That motion will be denied and this case will be dismissed for the reasons
explained briefly below.
1/4

This civil action is governed by the Prison Litigation Reform Act (the
“PLRA”), 28 U.S.C. § 1915A, which was enacted, in part, to prevent prisoners from
abusing the privilege of proceeding in forma pauperis.

See Adepegba v.

Hammons, 103 F.3d 383, 387 (5th Cir. 1996), abrogated on other grounds by
Coleman v. Tollefson, 575 U.S. 532, 537 (2015). Under the “three-strikes” rule
established by the PLRA, a prisoner is not allowed to bring a civil action without
prepaying the filing fee if, while incarcerated, three or more of his civil actions or
appeals have been dismissed as frivolous, malicious, or for failure to state a claim
upon which relief may be granted, unless he is in “imminent danger of serious
physical injury.” 28 U.S.C. § 1915(g) ; Lomax v. Ortiz-Marquez, — U.S. —, 140 S.
Ct. 1721,1723 (2020) (observing that the three-strikes rule was established to “help
staunch a ‘flood of nonmeritorious’ prisoner cases”) (quoting Jones v. Bock, 549
U.S. 199, 203 (2007)).
Court records confirm that Peters, who has filed more than 65 civil actions
and appeals in the federal courts while incarcerated, has incurred well over three
strikes: (1) Peters v. Gilbert, No. 4:15-cv-2762 (S.D. Tex. Oct. 1, 2015) (dismissed
as frivolous): (2) Peters v. Texas Medical Board, No. 4:15-cv-2858 (S.D. Tex. Oct.
8, 2015) (dismissed as frivolous and for failure to state a claim); (3) Peters v. Texas
Children’s Hospital et al, No. 4:15-cv-2900 (S.D. Tex. Oct. 6, 2015) (dismissed as
malicious and for failure to state a claim); (4) Peters v. Dr. Dreyer, No. 4:15-cv2899 (S.D. Tex. Oct. 14, 2015) (dismissed for failure to state a claim); (5) Peters v.
2/4

Harrison, etal., No. 4:15-cv-3037 (S.D. Tex. Oct. 19, 2015) (dismissed as frivolous
and for failure to state a claim); (6) Peters v. Valigura, No. 4:15-cv-3023 (S.D. Tex.
Oct. 27, 2015) (dismissed as frivolous and for failure to state a claim); (7) Peters v.
Duckworth, No. 4:15-cv-3024 (S.D. Tex. Oct. 22, 2015) (dismissed as frivolous and
for failure to state a claim); (8) Peters v. State of Texas, No. 4:17-cv-1459 (S.D. Tex.
May 17, 2017) (dismissed for failure to state a claim); and (9) Peters v. State of
Texas, No. 4:18-cv-261 (S.D. Tex. Jan. 31, 2018) (dismissed as frivolous and for
failure to state a claim). As the result of accumulating so many strikes, many other
cases filed by Peters have been dismissed as barred by the three-strikes rule. Peters
has also incurred monetary sanctions for his abuse ofjudicial resources. See Peters
v. State of Texas, No. 4:18-cv-261 (S.D. Tex. Jan. 31, 2018) (Dkt. 5, at 4) (imposing
sanctions in the amount of $400.00).
Because Peters has more than three strikes for purposes of § 1915(g), he is
barred from proceeding in forma pauperis in any civil action or appeal unless he
is in imminent danger of serious physical injury. To fit within this exception, a
prisoner must demonstrate that imminent danger of serious physical injury exists
at the time he seeks to file his complaint. See Banos v. O’Guin, 144 F.3d 883, 885
(5th Cir. 1998) (per curiam). Peters, who claims that he has been the victim of an
ongoing corrupt conspiracy since 2012, when he was charged with the offense that
resulted in his conviction and imprisonment, does not demonstrate that he is in
imminent danger of physical harm or that he fits within the exception to the three37 4

strikes rule.
Accordingly, the court ORDERS as follows:
1. The motion for leave to proceed in forma pauperis filed Michael G.
Peters [Dkt. 3] is DENIED.
2. This lawsuit is DISMISSED without prejudice under 28 U.S.C. §
1915(g). Peters may move to reinstate the case if he pays the full filing
fee for a civil action ($402.00) within thirty days.
The clerk will provide a copy of this order to the plaintiff.
Signed on Galveston Island this 26th day of

May____________ , 2021.

JEFFREY VINCENT BROWN
UNITED STATES DISTRICT JUDGE

4/4

V

United States District Court
Southern District of Texas

ENTERED

IN THE UNITED STATES DISTRICT COURT, Jtune„2i1'202' ,
FOR THE SOUTHERN DISTRICT OF TEXAS
GALVESTON DIVISION
No. 3:21-cv-0124
Michael G. Peters, TDCJ #2019190, Plaintiff,
v.

Dinah Huffman, etal., Defendants.

y-'/Y'Z/

ORDER
Jeffrey Vincent Brown, United States District Judge.
On May 26, 2021, this court dismissed the prisoner civil-rights action filed
by the plaintiff, Michael G. Peters (TDCJ #2019190; former Montgomery County
Inmate #551534), as barred

The three-strikesTnJe4opnd in the Prison Litigation

Reform Act (the “PLRA”), 28 U.S.C. § 1915(g)~(Dkt. 5). Peters has filed a notice of
appeal (Dkt. 6) and he has also filed an application for leave to proceed in forma
pauperis on appeal (Dkt. 7). As set forth previously in the court’s order of
dismissal, Peters has more than three strikes against him for filing frivolous
lawsuits in the federal courts (Dkt. 5, at 2-3). Peters does not demonstrate that his
case was dismissed in error or that he is in imminent danger of serious physical
injury for purposes of fitting within the exception to the three-strikes rule found in
28 U.S.C. § 1915(g)
1/2

Because Peters is not eligible to proceed without prepayment of the filing
fee, it is ORDERED that his application to proceed in forma pauperis (Dkt. 7) is
DENIED.
The clerk will provide a copy of this order to the plaintiff.
Signed on Galveston Island this

2lSt

day of

June

2021.

PPERE^XNGENTBROWN
ITED STATES DISTRICT JUDGE

2/2

